                                                              Issue Date
                                                                     January 26, 2012
                                                              Audit Report Number
                                                                     2012-AT-1007




TO:        Marcia Lewis, Director, Memphis Hub, Office of Public Housing, 4KPH

           Craig Clemmensen, Director, Departmental Enforcement Center, CV
           //signed//
           James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA
FROM:

SUBJECT: The Shelby County, TN, Housing Authority Mismanaged Its HUD-Funded
          Programs


                                  HIGHLIGHTS

 What We Audited and Why

            We audited the Shelby County Housing Authority in Memphis, TN, based upon
            an audit request from the U.S. Department of Housing and Urban Development
            (HUD), Office of Inspector General for Investigation. The request included many
            areas of concern for both public housing operations and Section 8 Housing Choice
            Voucher program administration. Our objective was to determine whether the
            Authority complied with HUD requirements for administering its public housing
            program, including funds received under the American Recovery and
            Reinvestment Act of 2009, and its Section 8 Housing Choice Voucher program.

 What We Found


            The Authority failed to administer its HUD-funded programs in accordance with
            requirements. We found indicators of noncompliance in every program area
            reviewed.
         The Authority did not comply with all requirements of its public housing
         consolidated annual contributions contract. Specifically, it willfully abandoned
         its Horton Gardens Apartments site, failed to protect tenants’ sensitive personally
         identifiable information, and failed to maintain complete and accurate records.
         As a result, the Horton Gardens site appeared to be devalued, and tenants’
         personal information was unnecessarily placed at risk.

         The Authority did not comply with the “buy American” requirement, did not
         publicly advertise, and did not conduct an independent cost estimate for its only
         Recovery Act contract. In addition, it did not maintain records supporting fair
         and open competition for two other procurements. As a result, it expended its
         entire $315,372 Recovery Act grant for an ineligible procurement and could not
         support the eligibility of other expenditures totaling $13,692.

         The Authority could not support that it met its 24-month obligation deadline
         requirement for $200,000 in unspent funds for its 2008 annual capital fund grant.
         As a result, $450,955 in fiscal years 2010 and 2011 capital funds risk being
         recaptured by HUD and redistributed to other public housing authorities.

         The Authority mismanaged its Section 8 Housing Choice Voucher program.
         Management failed to ensure that existing internal controls were understood by
         staff and followed. This failure created an environment resulting in or
         contributing to significant areas of noncompliance, including (1) failure to support
         a determination of owner eligibility, (2) miscalculation of tenant income and
         utility allowances, (3) failure to determine rent reasonableness, (4) incomplete
         housing quality inspection forms, (5) failure to document head of household’s
         citizenship, and (6) failure to retain a copy of a lease agreement resulting in
         $12,679 in unsupported housing assistance payments.

         These deficiencies occurred because management was either unaware of HUD
         regulations and its own procedures or chose to ignore them.

What We Recommend


         We recommend that the Director of the Memphis Office of Public Housing (1)
         determine whether the Authority should be declared in substantial default with its
         public housing consolidated annual contributions contract, 2) explore the
         feasibility of possible dissolution of the Authority or absorption of Authority
         activities by another public housing authority, (3) require the Authority to repay
         the U.S. Treasury $315,372 from non-Federal funds due to noncompliance with
         the “buy American” provision of the Recovery Act, (4) require the Authority to
         provide documentation to support that $200,000 in 2008 capital funds was
         properly obligated, and (5) require the Authority to properly train its staff on
         HUD Section 8 requirements as well as its own Section 8 policies and procedures.


                                          2
           We recommend that the Director of the Departmental Enforcement Center, in
           coordination with the Director of HUD’s Memphis Office of Public Housing, take
           appropriate administrative action against the Authority’s former executive
           director for badly mismanaging its operation.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the findings with Authority officials during the audit. We provided
           a copy of the draft report to the Authority on December 19, 2011, for its
           comments and discussed the report with Authority officials at an exit conference
           on January 6, 2012. The Authority provided its written comments to our draft
           report on January 9, 2012. The Authority generally agreed with the contents of
           the report.

           The complete text of the Authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            3
                            TABLE OF CONTENTS

Background and Objective                                                            5

Results of Audit
      Finding 1: The Authority Did Not Comply With All Requirements of Its Public   6
      Housing Consolidated Annual Contributions Contract

      Finding 2: The Authority Did Not Always Follow Procurement Requirements,      13
      Including Requirements for Its Recovery Act Capital Fund Grant

      Finding 3: The Authority Could Not Support That It Met Its Capital Fund       17
      Obligation Deadlines

      Finding 4: The Authority Mismanaged Its Section 8 Housing Choice Voucher      19
      Program

Scope and Methodology                                                               23

Internal Controls                                                                   25

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                27
   B. Auditee Comments and OIG’s Evaluation                                         28




                                            4
                      BACKGROUND AND OBJECTIVE

The Shelby County Housing Authority was established under the U.S. Housing Act of 1937 for
the purpose of providing affordable housing to low- and moderate-income families in Shelby
County, TN. The governing body of the Authority is composed of a five-member appointed
board of commissioners. The mayor of Shelby County appoints the board, which in turn hires
the executive director. The board terminated the executive director’s employment during our
review.

The Authority owned and managed 175 conventional low-income public housing units, 128 of
which had been approved for disposition. The Authority receives operating funds and capital
funds from the U.S. Department of Housing and Urban Development (HUD) for the operation
and modernization of its low-income public housing units.

Each year, HUD provides funds to public housing agencies for the operation and management of
public housing. For fiscal 2011, the Authority had received $281,127 as of August 31, 2011.

HUD annually provides capital funds to public housing agencies for the development, financing,
and modernization of public housing developments and for management improvements. The
Authority received capital fund grants of $249,148 for fiscal year 2008, $247,847 for fiscal year
2009, $247,013 for fiscal year 2010, and $203,942 for fiscal year 2011. The Authority had
nearly $880,000 in available capital funds as of August 31, 2011.

The Authority also received a $315,372 capital fund grant as part of the American Recovery and
Reinvestment Act of 2009. The purpose of the Recovery Act was to jumpstart the Nation’s
ailing economy, with a primary focus on creating and saving jobs in the near term and investing
in infrastructure that will provide long-term economic benefits.

The Authority also managed a Section 8 Housing Choice Voucher program. It began this
program to rehouse the public housing tenants that resided in the 128 public housing units
approved for disposition. The housing choice vouchers allow very low-income families to
choose and lease or purchase safe, decent, and affordable privately owned rental housing. The
Authority managed 113 housing choice vouchers and had received program funds from HUD of
$561,989 in fiscal year 2010, $456,139 in fiscal year 2011, and $391,827 in fiscal year 2012 as
of September 2011.

Our objective was to determine whether the Authority complied with HUD requirements for
administering its public housing program, including funds received under the Recovery Act, and
its Section 8 Housing Choice Voucher program.




                                                5
                                       RESULTS OF AUDIT

Finding 1: The Authority Did Not Comply With All Requirements of Its
Public Housing Consolidated Annual Contributions Contract
The Authority did not comply with all requirements of its public housing consolidated annual
contributions contract 1. Specifically, it (1) willfully abandoned its Horton Gardens Apartments
site, (2) failed to protect tenants’ sensitive personally identifiable information, (3) did not
maintain Authority records in such a manner as to permit timely and effective audit, and (4)
could not support that it provided annual operating budget information to its board of
commissioners. This condition occurred because management failed to follow through with the
approved sale of Horton Gardens Apartments and either was not aware of HUD’s requirements
or chose to ignore them. As a result, the Horton Gardens site appeared to be devalued, the
Authority failed to realize up to $200,000 from its sale, and tenants’ personal information was
unnecessarily placed at risk. Additionally, the lack of complete and accurate records could result
in inaccurate reports to HUD and the diminished effectiveness of audits. The absence of
budgetary information limited the board’s effectiveness in contributing to the planning and
oversight of the Authority.



    Management Willfully
    Abandoned Its Horton Gardens
    Apartments Site


                  Authority management abandoned the Authority’s Horton Gardens Apartments
                  site in violation of section 17(B)(4) of its consolidated annual contributions
                  contract, which lists abandonment of any project as an event of substantial
                  default. The Authority applied for approval to dispose of Horton Gardens for its
                  $200,000 fair market value and received approval from HUD’s Special
                  Applications Center 2 on May 28, 2009. Horton Gardens contained 3 nondwelling
                  buildings including the Authority’s former administrative building, 56 dwelling
                  buildings containing 128 dwelling units, 3 nonresidential units, and 24.5 acres of
                  underlying land. The Authority had not received any formal offers for Horton
                  Gardens at the time of our audit.

                  We performed a site visit of Horton Gardens on September 29, 2011, in response
                  to the former executive director’s statement that he had decided to allow the site
1
  A consolidated annual contributions contract is a written contract between HUD and a public housing authority in
which the authority agrees to administer its public housing program in accordance with HUD regulations and
requirements.
2
  HUD’s Special Applications Center enables the Office of Public Housing to assist public housing agencies to meet
the housing needs of their communities by conducting specialized review and approval of non-funded, non-
competitive applications including demolition and disposition of public housing units through razing, sale, or lease.

                                                          6
to “go back to nature.” We found the development in deplorable condition. All
of the buildings had been vandalized, and nearly everything of value had been
stolen. Thieves had gutted the buildings for the copper wiring, lighting fixtures,
and most doors and windows. The property appeared to have been untended for
quite some time, as vegetation had grown unchecked and was higher than the
buildings in some cases.

The former executive director’s “go back to nature” statement indicated a
conscious and willful decision to abandon Horton Gardens. Authority staff
indicated that the site had been boarded up after the administrative office was
moved to its current location during the summer of 2010 and had been untended
since that time. As a result of the abandonment, Horton Gardens appeared to be
significantly devalued, making it unlikely that the Authority would be able to
dispose of the property for the $200,000 fair market value approved in its
disposition application. The Authority will also likely incur additional costs to
clean up or demolish the site. The photographs below provide examples of the
property conditions at the time of our site visit.




    Horton Gardens – Doors and windows missing from the former
    administration building




                                 7
                     Horton Gardens – Example unit exteriors




                     Horton Gardens – Example of unit interior

We alerted the HUD Memphis field office to the conditions at Horton Gardens after
our site visit. HUD public housing management has been working directly with
Authority staff to ensure that appropriate action is taken to clean up and secure the
site until it can be disposed of.



                                  8
Management Failed To Protect
Tenants’ Sensitive Personally
Identifiable Information


           Management failed to protect tenants’ sensitive personally identifiable information.
           Sensitive personal information that is lost, compromised, or disclosed without
           authorization could substantially harm an individual. Examples of such information
           include Social Security or driver’s license numbers, medical records, and financial
           account numbers such as credit or debit card numbers. HUD PIH (Public and Indian
           Housing) Notice 2010-15 contains many requirements applicable to such
           information, including the requirement that sensitive personal information be kept in
           locked files. The Authority was also required to keep accurate records of where the
           information was stored, used, and maintained.

           During our site visit to the Authority’s abandoned Horton Gardens development, we
           inspected the Authority’s former administration building and found documents
           scattered across the floor in several rooms. We examined a few of the documents
           and found sensitive personal information such as copies of birth certificates, Social
           Security cards, driver’s licenses, and other documents pertaining to tenants and their
           dependants.

           Authority staff members stated that they were unaware of the documentation left
           behind from the move to the new administration building. They indicated that the
           former executive director was responsible for the move and had informed them that
           everything had been boxed up and removed. The photograph below shows the
           interior of the former administration building.




                                             9
               Horton Gardens – Former administration building containing tenants’
               personal information

            Management’s disregard for the security of tenants’ personal information
            compromised tenant safety and posed significant risks for misuse of the information,
            including possible identity theft. We informed the HUD Memphis field office of the
            unsecured personal information, and the office began working directly with
            Authority staff to ensure that the documents were removed and secured.

Management Did Not
Effectively Maintain All
Records

            The Authority did not maintain its records in such a manner as to permit timely
            and effective audit as required by section 15(A) of its consolidated annual
            contributions contract. In several instances, we experienced difficulty in
            obtaining needed documents from either the files or Authority staff. We
            inspected the former executive director’s files for missing documentation;
            however, the files had no discernible system of organization, and we were unable
            to determine whether the documents were accurate or complete enough to be
            useful. We frequently had to rely on HUD staff for documents that should have
            been readily available in the Authority’s files. Management was either unaware
            of the document maintenance requirements or chose to ignore them. The lack of
            complete and accurate records could result in inefficient Authority operations,
            inaccurate reports to HUD, and the diminished effectiveness of audits.



                                             10
    Management Did Not Provide
    Operating Budget Reports to Its
    Board

                  The Authority could not support that it provided annual operating budget
                  information to its board of commissioners for approval as required by section
                  11(A) of its consolidated annual contributions contract. Authority staff was
                  unaware of any budget reports prepared by the former executive director and
                  expressed doubt that any existed. Management was either unaware of the
                  requirement to prepare an operating budget for each of its fiscal years and have it
                  approved by its board of commissioners or chose to ignore the requirement. The
                  absence of budgetary information limited the board’s effectiveness in contributing
                  to the planning and oversight of the Authority.


    Conclusion


                  Because the Authority did not comply with all requirements of its consolidated
                  annual contributions contract, the Horton Gardens site appeared to be devalued,
                  the Authority is at risk of being declared in substantial default 3 of its consolidated
                  annual contributions contract, and tenants’ sensitive personal information was
                  unnecessarily placed at risk. Additionally, the lack of complete and accurate
                  records could result in inefficient Authority operations, inaccurate reports to
                  HUD, and the diminished effectiveness of audits. The absence of budgetary
                  information limited the board’s effectiveness in contributing to the planning and
                  oversight of the Authority. Management must make a serious effort to address the
                  areas of consolidated annual contributions contract noncompliance, and HUD
                  should consider alternative options for the future of the Authority’s program
                  activities.

    Recommendations


                  We recommend that the Director of HUD’s Memphis Office of Public Housing

                  1A. Inform the Assistant Secretary for Public and Indian Housing of the possible
                      consolidated annual contributions contract default and request guidance from
                      the Office of General Counsel to determine whether a substantial default
                      needs to be declared.



3
  An event of substantial default is a serious and material violation of any one or more of the covenants contained in
the consolidated annual contributions contract signed between HUD and the Authority. Events of substantial default
include, but are not limited to, abandonment of any project by the Authority.

                                                         11
1B. Explore the feasibility of possible dissolution of the Authority or absorption
    of Authority activities by another public housing authority.

1C. Assess the Horton Gardens site and take appropriate action in consultation
    with HUD’s Special Applications Center regarding possible disposition or
    demolition of the property.

1D. Structure the sales agreement for any sale of the Horton Gardens site to
    require that any net proceeds be used to repay ineligible costs cited in this
    report and pay any remaining funds to the U.S. Treasury.

1E. Coordinate with the Authority to ensure that tenants with compromised
    sensitive personally identifiable information are notified according to HUD’s
    breach notification response plan requirements.

1F. Require the Authority to maintain its books and records in accordance with
    its consolidated annual contributions contract.

1G. Require the Authority to prepare and provide an operating budget to its board
    of commissioners for approval in accordance with its consolidated annual
    contributions contract.

We also recommend that the Director of the Departmental Enforcement Center, in
coordination with the Director of HUD’s Memphis Office of Public Housing,

1H. Take appropriate administrative action against the Authority’s former
    executive director for badly mismanaging its operations.




                                 12
Finding 2: The Authority Did Not Always Follow Procurement
Requirements, Including Requirements for Its Recovery Act Capital
Fund Grant
The Authority did not always follow applicable procurement requirements, including
requirements for its Recovery Act capital fund grant. It did not comply with the “buy American”
requirement, did not publicly advertise, and did not conduct an independent cost estimate for its
only Recovery Act contract. In addition, it did not maintain records supporting full and open
competition for two other non-Recovery Act procurements. Management was either unaware of
the applicable requirements or chose to ignore them. As a result, the entire $315,372 expended
for the Recovery Act grant was ineligible, $13,694 in disbursements was unsupported, and the
Authority could not assure HUD that all procurements were obtained at a reasonable cost or
through full and open competition.



 The Authority Did Not Comply
 With Recovery Act
 Procurement Requirements

              The Authority used its entire $315,372 capital fund Recovery Act grant to partially
              fund one contract to install 44 heating, ventilation, and air conditioning (HVAC)
              systems in its Kefauver Terrace public housing complex. The total contract amount
              for the project was $342,700.

              Section 1605 of the Recovery Act imposes a “buy American” requirement on
              Recovery Act funding. The “buy American” requirement states that manufactured
              goods must be manufactured in the United States. The “buy American” provision
              was not referenced in the contract documents for the HVAC installation, nor did the
              Authority seek a waiver of this requirement from HUD.

              The Authority’s procurement documentation contained references to the “buy
              American” requirement in correspondence between the Authority and its
              architectural and engineering firm for the project but did not support that the “buy
              American” provision was complied with.

              We inspected the HVAC units and found that they were manufactured in Thailand.
              The photograph below shows the product label on one of the HVAC units.




                                                13
                    Friedrich split type air conditioner – Made in Thailand

            Since there was no evidence that the Authority complied with the “buy American”
            provision, the entire $315,372 Recovery Act grant was ineligible.

The Authority Did Not
Publically Advertise or Perform
a Cost Estimate

            The Authority also failed to advertise the HVAC procurement. HUD’s procurement
            regulations at 24 CFR (Code of Federal Regulations) 85.36 (c) (1) require that all
            procurements be conducted in a manner providing full and open competition and
            that the invitation for bids be publicly advertised. In addition, the Authority’s
            procurement procedures required the request for bids for contracts of $100,000 or
            more to be publicly advertised at least once a week for 2 consecutive weeks.

            The Authority’s architectural and engineering firm confirmed that it contacted
            several companies on behalf of the Authority but did not formally advertise.
            Authority staff was unaware of any other advertisement related to the project. As a
            result, the Authority could not assure HUD that a request for bids was advertised as
            required, thus ensuring full and open competition.

            Additionally, the Authority did not conduct an independent cost estimate for this
            project. The Authority’s procurement procedures required the Authority to perform
            an independent cost estimate for all purchases above the micropurchase threshold,
            and HUD’s regulations at 24 CFR 85.36 (f) require a cost or price analysis in
            connection with every procurement action. The former executive director was

                                             14
             unaware of the requirement or the process for conducting independent cost
             estimates. As a result, HUD could not be assured that the Authority received the
             HVAC units at the most reasonable cost.


Other Contracts Lacked
Support for Full and Open
Competition

             We reviewed three non-Recovery Act procurements and found that two lacked
             documentation in support of full and open competition.

             The Authority accepted the next to lowest cost proposal of $8,350 for the exterior
             painting of its Kefauver Terrace public housing complex. Procurement
             documentation did not include a justification for selecting other than the lowest
             proposal as required by Authority procurement procedures. The Authority
             expended $8,736 for the painting project due to additional minor items being
             added to the scope of work.

             The Authority did not sufficiently document its rationale for selecting the vendor
             for its landscaping contract. The documentation did not include evidence that
             quotes were obtained as required by Authority purchasing procedures or a
             justification for why the landscaper was chosen. The Authority had expended
             $4,958 for this contract as of August 31, 2011.


Conclusion


             The Authority did not comply with all procurement requirements for its Recovery
             Act capital fund grant and two other procurements. As a result, it expended its
             entire $315,372 Recovery Act grant for an ineligible purpose, could not show that
             it fairly competed other procurements for which it expended $13,694, and could
             not assure HUD that its procurements were obtained at a reasonable cost or
             through full and open competition. This condition occurred because management
             either was unaware of the procurement requirements or chose to ignore them.

Recommendations



             We recommend that the Director of HUD’s Memphis Office of Public Housing
             require the Authority to

             2A. Repay the U.S. Treasury $315,372 from non-Federal funds.



                                              15
2B. Train its staff and follow all applicable HUD and Authority procurement
    requirements.

2C. Support that procurement actions were fairly and openly competed or
    reimburse its public housing program $13,694 from non-Federal funds.




                               16
Finding 3: The Authority Could Not Support That It Met Its Capital
Fund Obligation Deadlines
The Authority could not support that it met its 24-month obligation deadline requirement for
$200,000 in unspent capital fund grant funds for fiscal year 2008. Staff members stated that the
former executive director handled all aspects of the capital fund grants and they were unaware of
any contracts or expenditures that obligated the remaining 2008 funds. Staff could not explain
the Authority’s lack of obligations, indicating that management was either unaware of the
requirement to obligate the funds within 24 months or chose to ignore the requirement. This
noncompliance could result in $450,955 in future capital fund grants being taken back by HUD
and redistributed to other public housing authorities.



 No Documentation Was
 Provided To Support
 Obligation of Funds Within
 Prescribed Timeframes


               The Authority was unable to provide documentation to support that 2008 capital
               funds were properly obligated within prescribed timeframes. Regulations require
               that such funds be obligated no later than 2 years after they were made available
               to the Authority.

               We reviewed HUD’s Line of Credit Control System reports to determine whether
               the Authority reported it had been able to obligate its capital funds within
               applicable timeframes. HUD’s system, which tracks public housing authority
               progress in obligating and expending HUD funds, showed that the Authority
               reported that it had met its obligation deadlines for its 2008 capital fund grant.
               However, Authority staff was unable to provide supporting documentation for
               obligating the funds.

               HUD regulations (24 CFR 905.120 (c)(1)) prohibit awarding new capital fund
               assistance for any month during any fiscal year in which a public housing
               authority is in violation of the 2-year obligation deadline. Since the 2008 capital
               fund obligation deadline was June 12, 2010, the $450,955 in capital fund grants
               awarded after that date are in jeopardy of being taken back by HUD and
               distributed to other public housing authorities.




                                                17
                              Capital fund grants awarded after June 12, 2010
                                        Date award signed by       Amount of grant in
             Capital fund grant year    HUD                        jeopardy
             2010                       July 15, 2010                             $247,013
             2011                       August 3, 2011                            $203,942
             Total                                                                $450,955


Conclusion


             Because management lacked adequate controls over its capital fund program
             activities to adequately support that obligations were made in a timely manner,
             $450,955 in future capital fund awards is subject to being taken back by HUD and
             redistributed to other public housing agencies. Management must improve
             controls over its capital fund program activities to ensure that applicable
             obligation deadlines are met.

Recommendations



             We recommend that the Director of HUD’s Memphis Office of Public Housing

             3A. Require the Authority to provide documentation to support that contracts
                 totaling $200,000 were properly executed to support the obligation of the
                 remaining unexpended amount of 2008 capital funds.

             3B. If documentation required to satisfy recommendation 3A cannot be provided,
                 appropriate action should be taken in accordance with 24 CFR 905.120 with
                 respect to $450,955 in future capital fund grants awarded for 2010 and 2011.

             3C. Require the Authority to strengthen controls over capital fund program
                 activities to ensure that applicable obligation deadlines are met.




                                             18
Finding 4: The Authority Mismanaged Its Section 8 Housing Choice
Voucher Program
The Authority mismanaged its Section 8 Housing Choice Voucher program. Management failed
to exercise its responsibility to ensure that many program requirements were understood and
followed. Management had sufficient procedures in place to comply with the program
requirements but was either unaware of the procedures or chose to ignore them. Thus, it could
not assure HUD that Section 8 funds were properly used to provide decent, safe, and sanitary
housing to program participants.



 Mismanagement of the Section
 8 Program Resulted in Several
 Significant Deficiencies


              We performed a review of a nonstatistical sample of five tenant files. None
              contained verification of owner eligibility before the tenants were allowed to
              participate in the program, and the Authority’s housing manager confirmed that
              owner eligibility had not been verified. HUD requirements (chapter 11 of HUD
              Guidebook 7420.10G) prohibit the execution of a housing assistance payments
              contract before verification of owner eligibility. Without verification of eligibility,
              the Authority could not ensure that ineligible owners were prevented from
              participating in the program.

              None of the five tenant files contained accurate calculations of the tenant’s utility
              allowance. The Authority’s housing manager stated that the former executive
              director instructed staff to include only heating, cooking, other electric, and water
              heating when calculating a tenant’s utility allowance. HUD regulations require that
              the Authority maintain a utility allowance schedule for all tenant-paid utilities
              (except telephone), the cost of tenant-supplied refrigerators and ranges, and other
              tenant-paid housing services (such as trash collection). In addition, the Authority’s
              Section 8 plan required the Authority to include all tenant-paid utilities in the
              calculations. As a result of the exeutive director’s improper guidance, the Authority
              miscalculated tenant utility allowances. In addition, it had not updated its utility
              allowance schedule since the inception of its Section 8 program in 2009. HUD
              regulations require a documented review of Authority schedules of utility
              allowances annually.

              None of the five files reviewed contained documentation supporting that the
              Authority provided form HUD-52641-A (tenancy addendum) to the tenants or that it
              was included as part of the tenants’ lease with the owner as required. The tenancy
              addendum contains specific terms explaining the rights and obligations of all parties
              to a housing assistance payments contract that must prevail over any other


                                                 19
provisions of the lease. The housing manager confirmed that staff was unaware of
the tenancy addendum requirement.

In all five files reviewed, the Authority failed to follow HUD’s requirements for
determining rent reasonableness before the execution of the leases. HUD
regulations (24 CFR 982.507) require the Authority to determine that the rent is
reasonable before approving a lease. The regulations and the Authority’s
administrative plan explain the process for determining rent reasonableness through
a survey of comparable unassisted units. For these five families, the Authority had
no basis for assuring HUD that funds were not wasted on inflated rents or that
families were not inappropriately restricted as to where they could live.

Of the five tenant files reviewed for housing quality standards inspection forms, one
file did not contain an inspection form, and the other four contained incomplete
forms. HUD regulations prohibit the execution of a housing assistance payments
contract before a satisfactory housing quality standards inspection. The incomplete
forms were missing details such as

    •   Census tract information,
    •   The name of the family,
    •   The date of the inspection request,
    •   The year the unit was constructed,
    •   The number of bedrooms for the purposes of determing the fair market rent
        or payment standard,
    •   Inspection information on the bedrooms in the unit,
    •   Information on the exterior of the unit,
    •   Information on the heating and plumbing of the unit, and
    •   Information on the general health and safety of the unit.

Due to the Authority’s incomplete inspections and a lack of staff training, the
Authority could not assure HUD that it performed satisfactory inspections before the
execution of housing assistance payments contracts.

In three of the five files reviewed, there was no evidence of the head of household’s
citizenship. Authority staff stated that the documentation was in the tenants’ former
public housing files but had not been moved to the Section 8 files.

Two of the five tenant files reviewed contained errors in either the family’s total
income or adjusted income. In one case, the Authority overstated the family’s
nonreimburseable child care expenses, which reduced the family’s income. In
another case, the Authority overreported family income and overstated an income
adjustment. These errors resulted in incorrect housing assistance payments to the
owners as well as incorrect rents paid by the tenants.

In one file, the Authority failed to retain a copy of the intial lease between the owner
and the tenant. HUD regulations require the Authority to retain a copy of the

                                  20
             executed lease during the term of each assisted lease and for at least 3 years
             thereafter. As a result of this error, the Authority made $12,679 in unsupported
             housing assistance payments on behalf of the tenant from October 30, 2009, through
             September 1, 2011.

             Authority management did not conduct supervisory quality control inspections as
             required by HUD regulations and HUD Guidebook 7420.10G. An Authority
             supervisor or other qualified person must reinspect a sample of units under
             contract during the last public housing authority fiscal year. The Authority’s
             Section 8 specialist confirmed that no supervisory inspections had been
             performed. As a result, the Authority could not assure HUD that the inspections
             were being carried out as required, thus putting tenants at risk of living in
             substandard housing.

             The Authority failed to distribute utility allowance checks as required. In one case,
             Authority management withheld utility allowance checks on the suspicion that the
             tenant was not claiming all of his income. Management should have given the
             tenants due process and followed its Section 8 administrative plan for determining
             whether the participant would be terminated from the program before withholding
             any utility allowance funds.


Conclusion


             Mismanagement of the Authority’s Section 8 program resulted in many
             significant deficiencies across the program. Management must take meaningful
             action immediately to bring the Authority’s program to an acceptable level of
             compliance with HUD’s requirements. It must improve staff’s understanding of
             the Authority’s controls to ensure that written policies and procedures are
             followed. It must maintain a capable, adequately trained, and well-supervised
             staff. Taking these measures will better assure HUD that Section 8 funds are
             properly used to provide decent, safe, and sanitary housing to program
             participants.

Recommendations



             We recommend that the Director of HUD’s Memphis Office of Public Housing
             require the Authority to

             4A. Properly train its staff on HUD Section 8 requirements as well as its own
                 Section 8 policies and procedures.




                                               21
4B. Properly implement existing procedures to ensure that

     1. Owner eligibility is verified before executing a housing assistance
        payments contract,
     2. Utility allowances are accurately calculated,
     3. All leases include HUD’s tenancy addendum,
     4. Income and adjusted income are accurately calculated,
     5. Rent reasonableness is determined before the approval of leases,
     6. Housing quality inspections are completed as required, and
     7. Leases are retained in tenant files for the required timeframe.

4C. Provide adequate documentation or repay $12,679 spent on housing
    assistance payments for a tenant whose file did not contain an executed copy
    of the lease.

4D. Provide proper and sufficient training to staff performing housing quality
    inspections.

4E. Begin performing quality control inspections as required to ensure that
    inspections are adequately performed by Authority staff.




                                22
                        SCOPE AND METHODOLOGY

We performed our onsite work from August 31 through October 7, 2011, at the Authority’s offices
at 8092 U.S. Highway 51 North, Millington, TN. The audit covered the period January 2009
through July 2011 and was extended as necessary. Our objective was to determine whether the
Authority complied with HUD requirements for administering its public housing program,
including funds received under the Recovery Act, and its Section 8 Housing Choice Voucher
program.

To accomplish our objective, we reviewed

   •   Financial management regulations at 24 CFR 85.20, Section 8 program regulations at 24
       CFR Parts 982 and 984, HUD Guidebook 7420.10G, HUD’s applicable annual
       contributions contracts with the Authority, procurement regulations at 24 CFR 85.36,
       capital fund regulations at 24 CFR 968, HUD Guidebook 7485.3G, the Recovery Act,
       and HUD’s Memphis Office of Public Housing’s correspondence and files pertaining to
       the Authority.

   •   The Authority’s policies and procurement manuals, list of Section 8 tenants, Section 8
       participant files, capital fund program draw requests and obligations, Authority program
       records, the Authority’s Recovery Act plans and contract, Authority credit card and bank
       statements, the two latest Authority audits, and the Authority’s organizational chart.

We interviewed Authority employees and HUD’s Memphis staff involved with the oversight of the
Authority’s programs. We selected several nonstatistical samples as described below. The
results from these samples pertain only to the items sampled and were not projected to the
universe as a whole.

We reviewed all seven capital fund draws performed during our audit period. We tested each of
the draws for ineligible or unsupported expenses and to determine whether any funds were
transferred to the Authority’s other programs.

We conducted site visits to the Authority’s public housing sites, Kefauver Terrace and Horton
Gardens, to determine site conditions and confirm the Authority’s completion of its Recovery
Act and capital fund activities.

We reviewed a sample of four procurement actions (including the Recovery Act contract) for
compliance with regulations. The Authority did not maintain a contract or procurement register
and was unable to provide a list of procurements for our audit period. As a result, we were
unable to reliably develop a universe of procurements from which to select a sample. We
identified contracts to review based upon our review of documentation at the HUD Memphis
field office and discussions with HUD Memphis field office staff.

We reviewed a sample of five Section 8 program participant files to determine Authority
compliance with program requirements. We originally selected a random nonstatistical sample of

                                               23
15 tenant files from a universe of 113 participants. We curtailed our review after the initial five files
provided sufficient evidence of significant program deficiencies.

We selected a random nonstatistical sample of five Section 8 units for housing quality standards
inspections. We selected our sample from a list of 12 units that had been inspected during the 3
months before our inspections. Some units were excluded from our selection due to tenants
declining to move in after the Authority inspections.

We reviewed documentation for all transactions occurring during the month of July 2011 to
determine whether program funds were used for authorized purposes and eligible activities.

We tested all electronic data as we performed our audit steps. We did not rely on any supplied
data without tracing it to source documentation.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                   24
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

     •   Effectiveness and efficiency of operations,
     •   Reliability of financial reporting, and
     •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Program operations – Policies and procedures that management has
                   implemented to reasonably ensure that a program meets its objectives.

               •   Compliance with laws and regulations – Policies and procedures that
                   management has implemented to reasonably ensure that resource use is
                   consistent with laws and obligations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 25
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

             •   The Authority did not have controls in place to ensure that it complied with its
                 public housing consolidated annual contributions contract (finding 1).

             •   The Authority did not have effective controls to ensure that it complied with the
                 “buy American” requirement of the Recovery Act or complied with Authority
                 and HUD procurement requirements (finding 2).

             •   The Authority did not have controls in place to ensure that it complied with
                 capital fund obligation deadlines (finding 3).

             •   The Authority did not have controls for effective Section 8 administration
                 (finding 4).




                                               26
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

     Recommendation          Ineligible 1/        Unsupported 2/      Funds to be put to
            number                                                         better use 3/
            2A                  $315,372
            2C                                          $13,694
            3A                                         $200,000
            3B                                                                 $450,955
            4C                  ________                $12,679               ________

          Total                 $315,372               $226,373                $450,955


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If the Memphis HUD office implements recommendation
     3B, unobligated capital funds will be taken back and can be used for other eligible
     activities.




                                             27
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                                    Auditee Comments

                                                           SHELBY COUNTY
                                                          HOUSING AUTHORITY
                                                           8092 US HIGHWAY 51 NORTH
                                                             MILLINGTON, TN 38053
                                                         901-353-0590 FAX: 901-358-6414
              Chairman:
              John B. Smith
              Commissioners:
              Patrick H. Carter, III
              Tannera G. Gibson
              H. David Lowrance
              Malcolm D. Collier
                                       January 6, 2012
                                       James D. McKay, Regional Inspector General for Audit
                                       U.S. Department of Housing and Urban Development
                                       Office of Inspector General
                                       Richard B. Russell Federal Building
                                       75 Spring Street, SW, Room 330
                                       Atlanta, GA 30303

                                       Dear Mr. McKay:

                                       The attached documents detail the response on behalf of the Board of
                                       Commissioners for the Shelby County Housing Authority in relations to the
                                       recent audit facilitated by the Office of the Inspector General.

                                       This response clearly details the efforts that the Shelby County Housing
                                       Authority has taken and continues to take as a course of corrective action to
                                       the items identified in the OIG Audit report. As a Board, we are committed
                                       to adhering to the requirements of the Department of Housing and Urban
                                       Development and will continue to work to ensure that compliance request
                                       are met and becomes the norm and not the exception.

                                       If you have any further concerns or request please feel free to contact our
                                       office at the contact information listed.

                                       Sincerely,
                                       //signed//
                                       John B. Smith
                                       Chairman

                                       cc: Board of Commissioners (SCHA), Marcia Pierce-Lewis




                                                           28
                                             Management’s and Board Comments
                                          HUD’s Office of Inspector General for Audit
                                                          Audit Report
                                                         January 9, 2012


            Management Summary

            The Shelby County Housing Authority (the Authority) has reviewed the Draft Audit Report
            issued by HUD's Office of Inspector General for Audit (OIG). Management and the Authority’s
            Board of Commission (Board) acknowledges that there have been several operational and
            compliance issues pertaining to the management of the Authority and the expenditure of its
            associated funding. The Authority has taken several steps to begin to address the multitude of
            issues over the last several months. The former executive director was released from
            employment on September 2, 2010 and the Board has recruited and engaged contractual
            experienced, capable and qualified management assistance. In addition assistance has also been
            sought and provided by the local HUD Field Office Public Housing Division.

            In addition to the many issues in the overall management of the Authority, the Authority has
            experienced many financial misstep that were the direct result of poor financial management and
            indiscretions and noncompliance by the prior Executive Director that were immediately brought
            to the attention of the OIG by the Board and the local HUD Field Office. Other irregularities
            were reported to the HUD Memphis Office by the current staff, Board and contracted Executive
            Advisor. As a result, current management and staff have worked extensively to conduct research
            and recover from prior practices, while establishing new processes and controls along the way.

            It should be noted that after an assessment by HUD and in concert with the Board and staff, a
            determination has been made that this agency is not financially viable and the Board is presently
Comment 1   actively developing and moving forward in a plan of merger with the Memphis Housing
            Authority for future management of its assets and operations. An additional management is
            being developed for management by a capable housing authority through this transition.

            The Authority has reviewed all of the OIG Draft Audit Report findings, and has provided
            associated responses below.




                                                     29
            Management’s Comments                                                           January 9, 2012
            HUD’s OIG Report


            Finding 1 -- The Authority Did Not Comply With All Requirements of Its Public Housing
            Consolidated Annual Contributions Contract

            Recommendation lA - Inform the Assistant Secretary for Public and Indian Housing of the
            possible consolidated annual contributions contract default and request guidance from the Office
            of General Counsel to determine whether a substantial default needs to be declared.

            It is difficult to dispute the fact that the previous executive director by action and in word
            knowingly abandoned the Horton Gardens Apartments site. It is furthermore understood that this
            constitutes a violation of the ACC agreement between Shelby County Housing Authority and
            HUD. The Board of Commissioners at the time of the abandonment relied heavily on the
            executive director to provide accurate information regarding the status of the property and to
            advise them on how to proceed with the property disposition. Despite their efforts to inquire of
            project status and requests for direction on moving forward, it is apparent that the previous
            director was not forthcoming in providing the necessary information to allow the Board to
            expedite the action. With the change in the current Shelby County mayoral administration, a new
            Board was appointed in early 2011. This new Board followed up with earlier concerns relative
            to the director until it became clear that he had engaged in improper management of the agency
            for some time. He was terminated September 2, 2011 as a result of these issues.

Comment 1   Upon notification of this potential breach and default, the local HUD Field Office immediately
            provided guidance and assistance to the Authority. The Special Application Center (SAC) was
            contacted and advised the field office staff to move quickly to clear and secure the property and
            work on an auction of the property. HUD staff provided guidance for the procurement and
            subsequent approval of the same for services to clean all the debris and secure the site. HUD
            staff and housing authority staff, secured all of the documents left by the previous management
            in the former office and have examined all and secured them at the agency's current office under
            lock and key. HUD staff also engaged HUD Headquarters to advise them of a potential breach
            of confidential personal identifiable information of former tenants and worked with them to
            determine if this in fact had occurred and took immediate action as previously identified. It was
            determined that a breach had not occurred and upon consultation of State privacy laws a
            determination was made that notification was not necessary in this case, but that instead the
            continued security of the documents must be insured.

            Recommendation 1B - Explore the feasibility of possible dissolution of the Authority or
            absorption of Authority activities by another public housing authority.

            The Board upon consultation with HUD's office of public housing has determined that the
            agency is not financially viable and on January 6, 2012 passed a resolution to develop an action
            plan of merger with the Memphis Housing Authority (MHA) relinquishing ownership of the
            public housing properties and programmatic assets and responsibilities associated with the public
            housing low rent program and the Housing Choice Voucher program. The merger will require
            additional official action by the SCHA Board, the MHA Board and approval by the Assistant
            Secretary of HUD. Negotiations between the two agencies will ensure a merger plan is




                                                                2




                                                       30
            Management’s Comments                                                             January 9, 2012
            HUD’s OIG Report

            developed. It is anticipated that the transition would take a minimum of three months to
            complete.
            The Board will then make a determination relative to the dissolution of the current entity legally
            known as the Shelby County Housing Authority upon advice of Counsel.

            Recommendation 1 C - Assess the Horton Gardens site and take appropriate action in
            consultation with HUD’s Special Applications Center regarding possible disposition or
            demolition of the property.

            Upon notification of this potential breach and default, the local HUD Field Office immediately
            provided guidance and assistance to the Authority. The Special Application Center (SAC) was
            contacted and advised the field office staff to move quickly to clear and secure the property and
            work on moving forward with an immediate auction of the property. The field office was further
            advised that should the auction result in less than the originally agreed upon fair market value, an
            amended approval could be sought from the SAC. HUD staff provided guidance for the
            procurement and subsequent approval of the same for services to clean all the debris and secure
Comment 1   the site. Since the firing of the previous executive director the Horton Gardens Apartments site
            has been secured with a locked gate and the grounds cleaned. Local law enforcement has been
            notified that the property is considered to be private and no person or persons are allowed.
            Routine patrols of the property are being performed. Additionally, the Board is ensuring that the
            property is inspected by an agency representative on a routine basis.

            It is the intention of the Board to utilize the services of the management consultant to properly
            procure auctioneering services to dispose of the property to the highest bidder and recapture as
            much of the property value as possible before more deterioration of property occurs. This action
            could change depending on whether Memphis Housing Authority would want to undertake this
            action and following their procurement and disposition policies.

            Recommendation 1D - Coordinate with the Authority to ensure that tenants with compromised
            sensitive personally identifiable information are notified according to HUD’s breach notification
            response plan requirements.

            With respect to Recommendation 1D, HUD’s Breach Notification Team on October 7, 2011,
            determined that the matter of records at the SCHA was a third-party matter and subject to state
            and local laws, not directly to HUD’s policies. In two emails of that date from Jerry Williams,
            HUD CIO stated, “I have already convened the Department’s Breach Notification Team to
Comment 2   ascertain the facts that are attached and will be meeting with the team today to possible close out
            this event based on OGC's determination that the PHA is a third-party that is obligated
            contractual to safeguard and protect PII this and other associated issues.” And, in the second
            email, “The team agreed this morning to close-out this incident provided that John Gemmill and
            his team continue to work with the Shelby County Housing Authority to ensure the safeguard
            and protection of sensitive PII. John mentioned that he and his team will be meeting on Monday
            with Mayor Wharton to discuss this and other associated issues.

            HUD staff acted quickly to secure exposed records at the Horton Garden site. There was no
            indication that records had been viewed in spite of the security breach, with most files being

                                                                 3




                                                         31
            Management’s Comments                                                           January 9, 2012
            HUD’s OIG Report

            unopened. HUD’s Legal staff and PIH Hub Director informed Shelby HA County Board of their
            obligations. Shelby County HA removed the records from the site and has them in their office.

            Recommendation IE - Require the Authority to maintain its books and records in accordance
            with its consolidated annual contributions contract.

            While additional improvements are needed in this area, substantial improvements have been
            made since the firing of the previous executive director. The Board has secured the services of
            Zocolla Kaplan, LLC, a very reputable auditing and financial consulting firm, to provide
            guidance and support in completing and documenting financial transactions, troubleshooting and
            clearing up existing discrepancies and previous audit findings, and assisting the agency in
            developing tighter internal controls. The agency’s fiscal year 2012 financial records will be
            audited beginning January 9, 2012.
Comment 1
            The agency has secured an executive and program consultant to provide recommendations for
            procedural changes and policy recommendations for day to day operations.

            Additionally, since the OIG Audit, the agency has been assisted on an almost daily basis by Mr.
            Scott Delle, fee accountant from the agency of Zocolla Kaplan, LLC and has provided guidance
            to them on timely reporting, expenditures against eligible expenses and performed a
            reconciliation of the administrative costs for the agency. His work resulted in the agency
            clearing a potential repayment of ineligible costs against its HCV program.

            Recommendation 1F - Require the Authority to prepare and provide an operating budget to its
            board of commissioners for approval in accordance with its consolidated annual contributions
            contract.
Comment 1   The financial and program consultants worked with agency staff to prepare and present a 2012
            operating budget for the Board’s approval. Additionally, changes to the cost allocation plan
            were submitted for review and approval to the Board.

            Recommendation 1G - Take appropriate administrative action against the Authority’s former
            executive director for badly mismanaging its operations.

            The Board will provide its full support and cooperation in the Department’s attempt to bring
            accountability for any purposeful actions leading to the gross mismanagement of the agency by
            the previous executive director.

            The Office of Inspector General Enforcement Division notified the Memphis Director of Public
            Housing of an investigation against Mr. Edward Pearlman on July 28, 2011. That investigation
            is ongoing but has resulted in a request for Limited Denial of Participation and continues as of
            the writing of this response. Further action may be sought depending upon its outcome.




                                                                4




                                                      32
            Management’s Comments                                                           January 9, 2012
            HUD’s OIG Report

            Finding 2 - The Authority Did Not Always Follow Procurement Requirements, Including
            Requirements for Its Recovery Act Capital Fund Grant

            Recommendation 2A - Repay the U.S. Treasury $315,372 from non-Federal funds.

            Once again, the Board cannot dispute that the actions of the previous executive director
            regarding procurement activities related to the Recovery Act Capital Fund Grant violated HUD
            regulations. The former Board relied on reports and action of the director to properly execute policy
            in a manner that would assure compliance with agency and HUD regulation and policy.

            SCHA does not have a non-federal funding source to repay the $315,372 Recovery Act Capital
            Fund Grant.

            The Authority is working closely as of the writing of this response with the local HUD field
Comment 1   office to seek a retro-active waiver of the “buy American” requirement. The exact air condition
            units have previously been approved for waiver by HUD for several housing authorities. It is the
            interpretation of current staff, management and the local HUD Field Office that the architect and
            engineer that worked with the agency on its ARRA Procurement thought that due to the
            manufacturer of the units having its home office in Fort Worth, Texas it met compliance.
            However, the actual assembly occurred in Thailand.

            The work items were included in the Annual and Five Year Plan. SCHA has also asked the
            program consultant to provide an updated procurement policy for Board approval and to provide
            necessary training to assure that compliance is maintained until a merger takes place between
            Memphis Housing Authority and SCHA. It is the hope of this agency that its action towards
            retroactive waiver, its changes in policy and its future merger of its operations with a capable
            housing authority will be taken into consideration and forgiveness granted on this finding. (See
            attached)

            Recommendation 2B - Train its staff and follow all applicable HUD and Authority procurement
            requirements.

            As stated above, the Authority has requested that the program consultant produce an updated
            procurement policy and that he provide training for both the staff and the Board until merger
            activities can be finalized. In the interim, all procurement is approved by the local HUD field
            office.

            Recommendation 2C - Support that procurement actions were fairly and openly competed or
            reimburse its public housing program $13,694 from non-Federal funds.

Comment 3   The Board is unable to produce sufficient evidence to assure that the above-mentioned
            procurement engagements of the previous executive director were fairly and openly completed.
            Likewise, the Authority does not have non-federal funds to repay the public housing program the
            $13,694. SCHA would like to request a waiver of this repayment in lieu of the merger of the
            agency with a proven capable housing authority that has no responsibility for these actions and



                                                                5




                                                     33
            Management’s Comments                                                           January 9, 2012
            HUD’s OIG Report

            assures HUD OIG that upon approval of the new procurement policy that all engagements will
            be done in accordance with that policy and HUD regulations. This would also help expedite the
            actions the Authority is taking towards merger with the Memphis Housing Authority especially
            since any financial liabilities may cause a delay or eliminate the chances of SCHA merging with
            another housing authority.

            Finding 3 - The Authority could not support that it met its capital fund obligation
            deadlines.

            The Authority in concert with the local HUD Field Office and upon local HUD’s consultation
            with the office of Capital Program and Investments has submitted a budget revision for its FY
            2008 CFP moving all funds into line item 1406 - Operations. A copy of the revision is attached.
Comment 1   By doing so, more than 90% of the funding is being requested for use under operations and
            meets qualification of obligation. Upon execution of these documents, it is anticipated that the
            HUD field office staff will immediately apply this revision to the budget.

            This action will remove jeopardy of the loss of the FY 2010 and FY 2011 CFP awards.




                                                               6




                                                      34
                         OIG Evaluation of Auditee Comments


Comment 1   The Authority stated that it agrees with the findings and has taken, or plans to
            take, various actions to address deficiencies. Notably, it has been working closely
            with the HUD Memphis field office and hired a consultant to assist with day-to-
            day management and improve internal controls. With the assistance of the field
            office, it has secured the Horton Gardens site, requested a waiver of the Recovery
            Act “buy American” requirement for the HVAC systems purchase, and is
            planning for a possible merger with another housing authority. It has also
            provided HUD with a revised budget for its 2008 capital fund in an attempt to
            prevent recapture of subsequent capital fund awards. We confirmed these actions
            while on site or through the HUD Memphis field office and commend the Board
            for timely addressing deficiencies cited in our report.

Comment 2   The Authority highlighted its efforts to address the compromised tenant personal
            information issue (Recommendation 1E) and explained that HUD's Breach
            Notification team had closed out the incident as of the date of the Authority's
            response. We verified that HUD’s Office of the Chief Information Officer had
            closed out the matter and we will close recommendation 1E concurrent with
            issuance of this report.

Comment 3   The Authority requested a waiver of recommendation 2C requiring it to reimburse
            its public housing program $13,694 from non-Federal funds for unsupported
            procurement actions. The Authority indicated that it had no non-Federal funds
            and this liability could potentially hinder its planned merger with another housing
            authority. We understand the Authority’s concerns but cannot grant a waiver.
            However, we added Recommendation 1D asking HUD to amend the sales
            agreement for the upcoming sale of Horton Gardens so that any sales proceeds
            can be used to recover ineligible costs cited in this report.




                                            35
